Case: 20-1534

Document: 20

Page: 1

Date Filed: 12/03/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1534

DAVID CALHOUN,
Appellant
v.
COMMONWEALTH OF PENNSYLVANIA;
DISTRICT ATTORNEY PHILADELPHIA;
ATTORNEY GENERAL PENNSYLVANIA
(E.D. Pa. No. 2:19-cv-02533)
SUR PETITION FOR REHEARING
Present:

SMITH, Chief Judge, and McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-captioned case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who concurred
in the decision having asked for rehearing, and a majority of the judges of the circuit in
regular service not having voted for rehearing, the petition for rehearing by the panel and
the Court en banc is DENIED.
By the Court,
s/Stephanos Bibas
Circuit Judge

Case: 20-1534

Document: 20

Dated: December 3, 2020
CLW/cc: Mr. David Calhoun
Jennifer O. Andress, Esq.

/

Page: 2

Date Filed: 12/03/2020

Case: 20-1534

Document: 16-1

Page: 1

Date Filed: 09/28/2020

September 10, 2020
BLD-300
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1534
DAVID CALHOUN, Appellant
v.
COMMONWEALTH OF PENNSYLVANIA; ET AL.
(E.D. Pa. No. 2:19-cv-02533)

Present: AMBRO, GREENAWAY, JR., and BIBAS, Circuit Judges
Submitted is Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1) in the above-captioned case.

Respectfully,
Clerk
_______________________________ ORDER__________________________ __
Calhoun’s request for a certificate of appealability is denied. Even if jurists of reason
could debate whether the District Court erred in denying his request for documents, they
would agree that Calhoun’s claim that the docket sheet misstates the nature of his plea is
barred by AEDPA’s one-year limitation period and that his claim that the Commonwealth
breached the plea agreement does not “state[] a valid claim of the denial of a
constitutional right.” Slack v. McDaniel. 529 U.S. 473, 484 (2000). The Commonwealth
is directed, within 30 days of the date of this order, to serve on the petitioner a copy of
the brief it filed in the Superior Court in Commonwealth v. Calhoun. No. 417 EDA 2018.
By the Court,
s/Stephanos Bibas
Circuit Judge
Dated: September 28, 2020
CLW/cc: Mr. David Calhoun
Jennifer O. Andress, Esq.

t\

_ • ♦«♦ • *

' (■

■■
TOf' •'
£
P •

.-V
A True Copy: 0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 20-1534

Document: 16-2

Page: 1

Date Filed: 09/28/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals

TELEPHONE

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
September 28, 2020

Jennifer O. Andress, Esq.
Philadelphia County Office of District Attorney
3 South Penn Square
Philadelphia, PA 19107
David Calhoun
Philadelphia FDC
700 Arch Street
P.O. Box 562
Philadelphia, PA 19105
Ronald Eisenberg
Office of Attorney General of Pennsylvania
1600 Arch Street
Suite 300
Philadelphia, PA 19103

RE: David Calhoun v. Commonwealth of Pennsylvania, et al
Case Number: 20-1534
District Court Case Number: 2-19-cv-02533
ENTRY OF JUDGMENT
Today, September 28, 2020 the Court issued a case dispositive order in the above-captioned
matter which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.

Case: 20-1534

Document: 16-2

Page: 2

Date Filed: 09/28/2020

Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/Carmella
Case Manager
267-299-4928

cc: Ms. Kate Barkman

Case 2:19-cv-02533-JD Document 27 Filed 02/20/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
DAVID CALHOUN,

CIVIL ACTION
Petitioner,

v.

COMMONWEALTH OF
PENNSYLVANIA,
THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, and
THE ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.

NO. 19-2533

ORDER
AND NOW, this 20th day of February, 2020, upon consideration of Petition Under 28
U.S.C. § 2254 for Writ of Habeas Corpus (Document No. 2, filed June 10, 2019), the record in
this case, the Report and Recommendation of United States Magistrate Judge Lynne A. Sitarski
dated December 5, 2019, pro se Petitioner’s Objections to Report and Recommendation
(Document No. 22, filed January 21, 2020), IT IS ORDERED as follows:
1.

The Report and Recommendation of United States Magistrate Judge Lynne A.

Sitarski dated December 5, 2019, is APPROVED and ADOPTED;

2.

The Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus is DENIED.

IT IS FURTHER ORDERED that a certificate of appealability will not issue because
reasonable jurists would not debate the propriety of this Court’s procedural ruling with respect to
petitioner’s claims. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
The decision of the Court is based on the following:
1.

In 2000, pro se petitioner was arrested and charged with drug offenses for selling

narcotics with a partner. On June 11, 2002, pro se petitioner entered a plea of nolo contendere to

Case 2:19-cv-02533-JD Document 27 Filed 02/20/20 Page 2 of 3

two counts of possession with intent to deliver a controlled substance, criminal conspiracy, and
possession of an instrument of crime. He was sentenced that same day to a term of three to six
years incarceration. He did not file a direct appeal. The procedural history of the case thereafter,
and the details of the related federal drug trafficking case, are set forth in the Report and
Recommendation;
2.

On May 29, 2019,pro se petitioner filed the instant Petition Under 28 U.S.C.

§ 2254 for Writ of Habeas Corpus raising the following two claims for relief:
a. Ground One - plea of nolo contendere was rendered involuntary/unknowing.
b. Ground Two - petitioner’s entry of nolo contendere was rendered
involuntary/unknowing upon state court’s refusal to correct the public record
to reflect nolo rather than “guilty plea” and refusal to strike “guilty”
adjudication.
The Magistrate Judge recommended that the Petition be denied without an evidentiary hearing as
time barred;
3.

Because pro se petitioner did not appeal, his judgment of sentence became final

thirty days after sentencing on June 11, 2002, that is, on July 11, 2002, upon expiration of the
thirty-day appeal period. Pa.R.Crim.P. 720(a)(3). Under the habeas corpus one-year statute of
limitations, pro se petitioner thus had until July 11, 2003, to timely file a habeas petition under
28 U.S.C. § 2244(d)(1). The instant Petition was filed on May 29, 2019, sixteen years late;
4.

In his Objections, pro se petitioner argues for a different timeliness analysis. The

Court is in complete agreement with the timeliness analysis of the Magistrate Judge and rejects
pro se petitioner’s analysis on this issue;

2

Case 2:19-cv-02533-JD Document 27 Filed 02/20/20 Page 3 of 3

5.

The Court notes that all ofpro se petitioner’s claims - the substantive claim as

well as his current claim in his Objections for a different “factual predicate” start date for the
statute of limitations - relate to a mere clerical error on the Pennsylvania docket sheets for his
underlying state court case. The Pennsylvania docket sheets list the disposition of the case as
“guilty plea” as opposed to “nolo contendere.” Pro se petitioner now claims that this clerical
error somehow rendered his plea involuntary. He also asserts that the habeas limitations period
should not have begun to run until he discovered the clerical error on the docket sheets in
December of 2018. The Court rejects these claims and arguments asserted by pro se petitioner;
and,
6.

Pro se petitioner’s judgment because final after the date he could have discovered

the factual predicate for his alleged claims, June 11, 2002. That is the date pro se petitioner
could have discovered in the exercise of ordinary care that there was a clerical error on the
docket sheet. Thus, the judgment in this case became final on July 11, 2002, and the pro se
habeas corpus petition is therefore time barred.
BY THE COURT:
Is/ Hon. Jan E. DuBois
DuBOIS, JAN E., J.

3

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
DAVID CALHOUN,

CIVIL ACTION

Petitioner,
v.

NO.

19-cv-2533

COMMONWEALTH OF
PENNSYLVANIA, et al.
Respondents.

REPORT AND RECOMMENDATION
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE

December 5,2019

Before the Court is a pro se Petition for Writ of Habeas Corpus filed pursuant to 28
U.S.C. § 2254 by David Calhoun (“Petitioner”), an individual currently incarcerated at the
Federal Detention Center in Philadelphia, Pennsylvania. This matter has been referred to me for
a Report and Recommendation. For the following reasons, I respectfully recommend that the
petition for habeas corpus be DENIED.

I.

FACTUAL AND PROCEDURAL HISTORY1
In 2000, Petitioner was arrested and charged with drug offenses in connection with

selling narcotics with a partner. Commonwealth v. Calhoun, 417 EDA 2018, 2019 WL 1896517,
at *1 (Pa. Super. Ct. 2019); (Crim. Docket at 4). On June 11, 2002, Petitioner entered a plea of

l

Respondents have submitted the state court record (“SCR”) in hard-copy format. The
Court has also consulted the Philadelphia Court of Common Pleas criminal docket sheets for
Petitioner’s underlying criminal case in Commonwealth v. Calhoun, No. CP-5 l-CR-06013712000, (Phila. Cnty. Com. PL), available at
https://uisportal.pacourts.us/DocketSheets/CPReport.ashx?docketNumber=CP-51-CR-06013712000&dnh=WDqphuG9LGnNpOkv4AdiEQ%3d%3d (last visited Dec. 5, 2019) [hereinafter
“Crim. Docket”].

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 2 of 12

nolo contendere to two counts of possession with intent to deliver a controlled substance,
criminal conspiracy, and possession of an instrument of crime. Calhoun, 2019 WL 1896517, at
* 1; (Crim. Docket at 3). He was sentenced the same day to a term of three to six years’
incarceration. Id. He did not file a direct appeal. Id.', (see generally Crim. Docket).
On September 3, 2003, Petitioner was released on parole. Calhoun v. Pa. Bd. ofProb. &
Parole, 2007 WL 8058363, at *1 (Pa. Commw. Ct. 2007). While on parole, Petitioner was
indicted and convicted of federal drug offenses in the Eastern District of Pennsylvania. United
States v. Calhoun, No. 05-cr-363-6 (Indictment, ECF No. 1; Verdict, ECF No. 263). On August
11, 2006, the Honorable Marvin Katz sentenced Petitioner to twenty years’ imprisonment
followed by ten years of supervised release. Calhoun, No. 05-cr-363-6, (Judgment, ECF No.
354).
Based on this conviction, the Pennsylvania Board of Probation and Parole held a
revocation hearing on November 16, 2006, and on January 8, 2007, the Board recommitted
Petitioner as a convicted parole violator “to serve 36 months backtime when available.”
Calhoun v. Pa. Bd. ofProb. & Parole, No. 09-cv-1707, (ECF No. 11-1, Ex. A, Deck of Cynthia
L. Daub, at [f[f 19-20).2 Petitioner then began serving his twenty-year federal sentence. (Id. at [f
23). The Board of Probation and Parole lodged a detainer against Petitioner with the Federal
Bureau of Prisons to return Petitioner to state custody after the expiration of his federal sentence.
(Id. at |P 24).

2 Petitioner previously filed a petition for writ of habeas corpus challenging the
Pennsylvania Board of Probation and Parole’s decision recommitting him as a convicted parole
violator. Calhoun v. Pa. Bd. of Prob. & Parole, No. 09-cv-1707, (ECF No. 1 (Order transferring
matter from Northern District Ohio)). Cynthia L. Daub was then the Board Secretary and
Custodian of Records for the Pennsylvania Board. No. 09-cv-1707 (ECF No. 11, Ex. A, Deck of
Daub, at [f[P 1-5).
2

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 3 of 12

Meanwhile, on December 28, 2005, Petitioner filed a pro se petition pursuant to
Pennsylvania’s Post-Conviction Relief Act, 42 Pa.C.S. §§ 9541, et seq. (Crim. Docket at 4).
Petitioner sought credit for time served while he was on house arrest. Calhoun, 2019 WL
1896517, at *1. The PCRA Court granted relief on December 15, 2006, crediting Petitioner with
time served from January 31, 2000, to February 24, 2000. Id.; (Crim. Docket at 4).
Nearly nine years later, on September 24, 2014, Petitioner filed a second PCRA Petition.
(Crim. Docket at 5). On December 15, 2017, the PCRA Court issued a Rule 907 Notice of Intent
to Dismiss the petition. (Id.). Petitioner responded to the Rule 907 Notice on December 26,
2017. (Id.); Calhoun, 2019 WL 1896517, at *1. On January 16, 2018, the PCRA Court
dismissed his second petition as untimely. Id. Petitioner appealed the dismissal, and on April
29, 2019, the Superior Court affirmed the PCRA Court’s dismissal. (Crim. Docket at 5);
Calhoun, 2019 WL 1896517, at *3. The Superior Court found that Petitioner’s judgment of
sentence became final on July 11, 2002, so Petitioner had until July 11, 2003, to file a timely
PCRA Petition under the one-year statute of limitations. Id. at *2-3 (citing 42 Pa.C.S. §
9545(b)). Because Petitioner filed the PCRA Petition in 2014, the Superior Court affirmed the
PCRA Court’s dismissal of the petition as untimely. Id. at *3.
On May 29, 2019, Petitioner filed the instant pro se petition for habeas corpus, raising the
following two claims for relief (recited verbatim):
Ground One: Plea of nolo contendere
involuntary/unknowing.

was

rendered

Ground Two: Petitioner’s entry of nolo contendere was rendered
involuntary/unknowing upon state court’s refusal to
correct the public record to reflect nolo rather than
“guilty plea” and refusal to strike “guilty”
adjudication.
(Hab. Pet., ECF No. 2, at [f 12).
3

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 4 of 12

The Honorable Jan E. DuBois referred this matter to me for a Report and
Recommendation. (Order, ECF No. 6). On October 8, 2019, the Commonwealth filed its
Response. (Resp., ECF No. 11). On October 25, 2019, Petitioner filed a motion to compel
production of documents, arguing that “[t]he Clerk of Courts for Philadelphia County has yet to
file a copy of the state record and [Petitioner] has not received a copy of said record.” (Mot.,
ECF No. 12, at [f 3). He also filed a motion for extension of time to file a Reply to the
Commonwealth’s Response. (Mot., ECF No. 13). By Order dated October 30, 2019,1 denied
Petitioner’s motion to compel, which I liberally construed as a motion for discovery. (Order,
ECF No. 14). I explained that the Clerk of Courts of Philadelphia County had in fact sent the
state court record to this Court. (See ECF No. 10 (acknowledging receipt of state court record on
October 4, 2019)). I also explained that a habeas petitioner is not entitled to the state court
record as a matter of course; rather, he must establish “good cause” which is shown where
“specific allegations before the court show reason to believe that the [movant] may, if the facts
are more fully developed, be able to demonstrate that he is ... entitled to relief.” Bracy v.
Gramley, 520 U.S. 899, 908-09 (1997). Petitioner did not explain how the discovery he sought
could demonstrate he is entitled to habeas relief. I therefore denied the discovery request.
(Order, ECF No. 14, n.l). I also granted his request for an extension of time to file a Reply.
(Id).
On November 18, 2019, Petitioner filed his Reply. (Pet’r’s Reply, ECF No. 15). On
November 26, 2019, he filed a Motion for Stay and Abeyance of his habeas proceedings. (Mot.
Stay, ECF No. 16). This matter is now ripe for disposition.

4

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 5 of 12

II.

LEGAL STANDARDS
A.

Statute of Limitations

This petition is governed by the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), 28 U.S.C. §§ 2241 et seq. A strict one-year time limitation on the filing of new
petitions is set forth in the AEDPA. Under § 2244(d)(1), the AEDPA provides that a one-year
statute of limitations applies to all petitions brought pursuant to § 2254, which begins to run from
the latest of:
(A)

the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;

(B)

the date on which the impediment to filing an application
created by State action in violation of the Constitution or
laws of the United States is removed, if the applicant was
prevented from filing by such State action;

(C)

the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or

(D)

the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise
of due diligence.

28 U.S.C. §§ 2244(d)(l)(A)-(D). The one-year statute of limitations set out in § 2244(d)(1) is
applied to each individual claim in a habeas petition. Fielder v. Varner, 379 F.3d 113, 117-18
(3d Cir. 2004).
The AEDPA creates a tolling exception, which states that “[t]he time during which a
properly filed application for state post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending shall not be counted toward any period of limitation
under this subsection.” 28 U.S.C. § 2244(d)(2). An application “is ‘properly filed’ when its

5

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 6 of 12

delivery and acceptance are in compliance with the applicable laws and rules governing filings.”
See Artuz v. Bennett, 531 U.S. 4, 8 (2000).
The timeliness provision in the federal habeas corpus statute is also subject to equitable
tolling. Holland v. Florida, 560 U.S. 631, 634 (2010). To avail himself of equitable tolling,
petitioner must show that he diligently pursued his rights and that an “extraordinary
circumstance stood in his way.” Satterfield v. Johnson, 434 F.3d 185, 195 (3d Cir. 2006).
Equitable tolling should be used “only when the principle of equity would make the rigid
application of a limitation period unfair.” Merritt v. Blaine, 326 F.3d 157, 168 (3d Cir. 2003)
(citation and quotation marks omitted). Ultimately, a statute of limitations should be equitably
tolled “only in the rare situation where [it] is demanded by sound legal principles as well as the
interests of justice.” LaCava v. Kyler, 398 F.3d 271, 275 (3d Cir. 2005) (citation and quotation
marks omitted).
B.

Stay and Abeyance

The Supreme Court has approved the use of stay-and-abeyance procedures “only in
limited circumstances.” Rhines v. Weber, 544 U.S. 269, 277-78 (2005). Faced with a mixed
petition containing both exhausted and unexhausted claims, the Supreme Court recognized the
potential “risk of [petitioners] forever losing their opportunity for any federal review of their
unexhausted claims,” and allowed courts to “stay the petition and hold it in abeyance while the
petitioner returns to state court to exhaust his previously unexhausted claims.” Id. at 275. The
Third Circuit has extended Rhines to allow district courts to stay and abey petitions containing
only unexhausted claims. See Heleva v. Brooks, 581 F.3d 187, 192 (3d Cir. 2009). A district
court may issue a stay where: “(1) good cause exists for the petitioner’s failure to exhaust his

6

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 7 of 12

claims; (2) the unexhausted claims are not plainly meritless; and (3) the petitioner has not
engaged in dilatory or abusive tactics.” Id. (citing Rhines, 544 U.S. at 277-78).

III.

DISCUSSION
In his two claims for relief, Petitioner asserts that his “plea of nolo contendere was

rendered involuntary[.]” (Hab. Pet., ECF No. 2, [f 12). The Commonwealth responds that the
instant petition is untimely, Petitioner’s claims are procedurally defaulted, and that his claims do
not warrant relief. (Resp., ECF No. 11, at 4-9). I conclude the petition is time-barred and
respectfully recommend the District Court deny the petition. I also recommend Petitioner’s
Motion for Stay and Abeyance be denied because his habeas petition is untimely.
A.

The Petition is Time-Barred

As noted above, AEDPA imposes a one-year statute of limitations on state prisoners
seeking federal habeas relief. 28 U.S.C. § 2244(d)(1). Here, the applicable starting point is the
“date on which the judgment became final by conclusion of direct review or expiration of the
time for seeking such review.” 28 U.S.C. § 2244(d)(1)(A). On June 11,2002, Petitioner entered
his nolo contendere plea and was sentenced to three to six years’ imprisonment. (Crim. Docket
at 3-4). He did not file a direct appeal. (See generally Crim. Docket). Accordingly, his
judgment of sentence became final on July 11, 2002, upon expiration of the thirty-day period to
seek review. Pa. R. Crim. P. 720(A)(3) (stating that “the defendant’s notice of appeal shall be
filed within 30 days of imposition of sentence”); Pa. R. App. P. 903 (stating that an appeal “shall
be filed within 30 days after entry of the order from which the appeal is taken.”). Petitioner had
one year from that date, or until July 11, 2003, to timely file a federal habeas petition. 28 U.S.C.
§ 2244(d)(1). Petitioner did not file the instant petition until May 29, 2019. (Hab. Pet., ECF No.

7

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 8 of 12

2). Absent statutory or equitable tolling, the petition is untimely.
Petitioner does not assert that he is entitled to statutory or equitable tolling, and I find that
neither tolling exception applies. Petitioner is not entitled to statutory tolling because he filed his
PCRA Petition on December 28, 2005, after the habeas statute of limitations expired on July 11,
2003. (Crim. Docket at 4). This PCRA petition did not toll the already-expired AEDPA statute
of limitations. See Long v. Wilson, 393 F.3d 390, 395 (3d Cir. 2004) (finding that petitioner’s
untimely PCRA petition did not statutorily toll the limitations period because the federal habeas
time limitations had already expired by the time it was filed); Johnson v. Hendricks, 314 F.3d
159,161-62 (3d Cir. 2002) (“§ 2244(d)(2)’s tolling provision excludes time during which a
properly filed state post-conviction [petition] is pending but does not reset the date from which
the one-year limitations period begins to run”) (internal citation omitted); Perry v. Diguglielmo,
No. 06-1560, 2008 WL 564981, at *7 (W.D. Pa. Feb. 29, 2008) (“[T]he PCRA petition must be
filed before the [AEDPA] limitations period runs out, otherwise there is nothing left to be
tolled.”); Fried v. Horn, No. 02-8314, 2003 WL 23142179, at *3 (E.D. Pa. Aug. 11, 2003). To
avail himself of equitable tolling, Petitioner bears the burden of establishing two elements: ‘“(1)
that he has been pursuing his rights diligently, and (2) that some extraordinary circumstance
stood in his way’ and prevented timely filing.” Holland, 560 U.S. at 649 (quoting Pace, 544
U.S. at 418). He has not even alleged, much less shown, that he is entitled to equitable tolling.
Accordingly, I conclude that Petitioner’s petition is time-barred because he did not file it
within the one-year AEDPA statute of limitations. He has not demonstrated he is entitled to
either statutory or equitable tolling. Therefore, I respectfully recommend the petition be denied.3

3 The petition may also be unreviewable because Petitioner might not satisfy the custody
requirement of 28 U.S.C. § 2254. Under § 2254, the petitioner must be ‘“in custody’ under the
conviction or sentence under attack at the time his petition is filed.” Maleng v. Cook, 490 U.S.
8

Case 2:19-CV-02533-JD Document 17 Filed 12/05/19 Page 9 of 12

B.

Stay and Abeyance is Not Warranted

I also respectfully recommend Petitioner’s Motion for Stay and Abeyance be denied.
(Mot., ECF No. 16). The “stay and abeyance” procedure applies in limited circumstances:
where dismissal of a mixed habeas petition for the petitioner to properly exhaust his claims could
result in the petition becoming time-barred. Rhines, 544 U.S. at 275 (recognizing the potential
“risk of [petitioners] forever losing their opportunity for any federal review of their unexhausted
claims,” and allowing courts to “stay the petition and hold it in abeyance while the petitioner

488, 491 (1989); see also 28 U.S.C. § 2254(a). On June 11, 2002, Petitioner entered a plea of
nolo contendere and was sentenced to a term of three to six years’ incarceration. Calhoun, 2019
WL 1896517, at * 1. The Commonwealth notes “his maximum sentence would have expired in
2008” and this fact “strongly suggests that his sentence in the underlying Pennsylvania state case
expired before he filed the instant habeas petition in 2019”; and, therefore, Petitioner is no longer
“in custody.” (Resp. ECF No. 11, at 3 n.2). However, a petitioner subject to parole still satisfies
the “in custody” requirement. Lee v. Stickman, 357 F.3d 338, 342 (3d Cir. 2004). As noted
above, after Petitioner’s federal convictions, the Pennsylvania Board of Probation and Parole
recommitted him “to serve 36 months backtime when available.” Calhoun, No. 09-cv-1707,
(ECF No. 11-1, Ex. A, Deck of Daub, at [f 20). He then began serving the remainder of his
federal sentence. {Id. at [f 23). The Board also lodged a detainer with the Federal Bureau of
Prisons so that Petitioner could be returned to state custody after the expiration of his federal
sentence. {Id. at [f 24). Petitioner attached to his petition a “Detainer Action Letter” dated May
12, 2016, which is directed to the Pennsylvania Board of Probation and Parole. (Hab. Pet., ECF
No. 2, at p. 18). The Detainer Action Letter charges a parole violation, and includes Petitioner’s
State Court Docket Number and his Pennsylvania Parolee Number, No. 235CC. {Id.). Petitioner
is also presently listed under Parolee No. 235CC on the “Parolee Locator” service maintained by
the Pennsylvania Board of Probation and Parole. Pa. Bd. Prob. & Parole, Parolee Locator,
http://inmatelocator.cor.pa.gov/#/ (last visited Dec. 5, 2019). Accordingly, although I agree with
the Commonwealth that it seems possible Petitioner might not satisfy the “in custody”
requirement because “his maximum sentence would have expired in 2008,” the Board’s decision
recommitting him to serve “36 months backtime when available,” Petitioner’s attached Detainer
Action Letter from May 2016, and the Pennsylvania Parolee Locator seem to indicate that
Petitioner might still be subject to parole, thus satisfying the custody requirement. See
Lackawanna Cnty. Dist. Att’y v. Coss, 532 U.S. 394, 401 (2001) (explaining the “in custody”
requirement satisfied where “the State had lodged a detainer against him with the federal
authorities.” (citing Maleng, 490 U.S. at 493)); Lee, 357 F.3d at 342; Gregory v. State ofN. Y.,
Parole Comm ’n, 496 F. Supp. 748, 749 (M.D. Pa. 1980) (“A lodging of a detainer by a state
satisfies the ‘in custody’ portion of the habeas corpus statute.”). In any event, I do not decide the
“in custody” issue, because the instant petition is approximately sixteen years untimely, and I
recommend it be denied as time-barred.
9

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 10 of 12

returns to state court to exhaust his previously unexhausted claims.”). Staying the petition and
holding it in abeyance is unwarranted when the habeas petition is already time-barred. E.g.,
McWhorter v. McGinley, No. 18-3704, 2019 WL 3848873, at *5 (E.D. Pa. July 26, 2019) (“The
stay and abeyance procedure in Rhines is inapplicable to habeas petitions that already are timebarred at the time of their filing.”), adopted by 2019 WL 3836350; Sistrunk v. Rozum, No. 065630, 2009 WL 1089557, at *9 (E.D. Pa. Apr. 21, 2009) (noting “there is nothing in Rhines or its
progeny to suggest that the ‘stay and abey’ procedure was intended to create a ‘back door’ to the
review of claims that were untimely at the time of their original filing date.”).
Accordingly, because the instant petition is approximately sixteen years untimely, I
recommend the request for stay and abeyance be denied. E.g., Antonetty-Rodriguez v. Giroux,
No. 16-1930, 2016 WL 8813990, at *3 (E.D. Pa. Sept. 29, 2016) (recommending motion to stay
be denied because habeas petition itself was time-barred), adopted by 2017 WL 1493377, at *4
(“Here, [Petitioner’s] petition is untimely; there is no reason the stay the petition[.]”); Wise v.
Rozum, No. 12-1360, 2013 WL 5797659, at *7 (M.D. Pa. Oct. 28, 2013) (“The Court does not
believe a stay of the instant habeas petition is warranted here because the petition is untimely.”);
Chang-Cruz v. Hendricks, No. 12-7167, 2013 WL 5966420, at *8 (D.N.J. Nov. 7, 2013)
(“Because this federal habeas petition is untimely and will be dismissed, the request for a stay
and abeyance will be denied.”); Foster v. Beard, No. 07-2037, 2008 WL 161139, at *4 (E;D. Pa.
Jan. 15, 2008) (explaining that “it would be pointless to hold the instant petition in abeyance
[because] Petitioner is already time-barred from federal habeas review.”).

IV.

CONCLUSION
For the foregoing reasons, I respectfully recommend that the petition for writ of habeas

10

Case 2:19-CV-02533-JD Document 17 Filed 12/05/19 Page 11 of 12

corpus be denied. I conclude the petition is time-barred because Petitioner filed it on May 29,
2019, approximately sixteen years after the AEDPA statute of limitations expired on July 11,
2003. I also find no tolling exceptions apply. I further conclude stay and abeyance is
unwarranted because the petition is untimely.
Therefore, I respectfully make the following:

11

Case 2:19-cv-02533-JD Document 17 Filed 12/05/19 Page 12 of 12

RECOMMENDATION
AND NOW this

5TH

day of December, 2019,1 respectfully RECOMMEND that the

petition for writ of habeas corpus be DENIED as untimely without an evidentiary hearing and
without the issuance of a certificate of appealability. I further RECOMMEND that Petitioner’s
Motion for Stay and Abeyance be DENIED.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.

BY THE COURT:

/s/ Tvnne A. Sitarski
LYNNE A. SITARSKI
United States Magistrate Judge

12

Case 2:19-cv-02533-JD Document 17-1 Filed 12/05/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
DAVID CALHOUN,

CIVIL ACTION

Petitioner,
v.
NO. 19-2533
COMMONWEALTH OF
PENNSYLVANIA, et al.,
Respondents.

ORDER
AND NOW, this

,20.

day of

, upon careful

and independent consideration of the petition for a writ of habeas corpus filed pursuant to 28
U.S.C. § 2254, and after review of the Report and Recommendation of United States Magistrate
Judge Lynne A. Sitarski, IT IS ORDERED that:
1. The Report and Recommendation is APPROVED and ADOPTED.
2. The petition for habeas corpus filed pursuant to 28 U.S.C. § 2254 is DENIED
without an evidentiary hearing.
3. The Motion for Stay and Abeyance (ECF No. 16) is DENIED.
4. There is no basis for the issuance of a certificate of appealability.
BY THE COURT:

JAN E. DUBOIS,

J.

Case 2:19-cv-02533-JD Document 17-2 Filed 12/05/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
12/6/2019
RE:

CALHOUN v. COMMONWEALTH OF PENNSYLVANIA et al
CANo. 19-cv-02533

NOTICE
Enclosed herewith please find a copy of the Report and Recommendation filed by
United States Magistrate Judge Lynne A. Sitarski, on this date in the above captioned matter.
You are hereby notified that within fourteen (14) days from the date of service of this Notice of
the filing of the Report and Recommendation of the United States Magistrate Judge, any party
may file (in duplicate) with the clerk and serve upon all other parties written objections thereto
(See Local Civil Rule 72.1 IV (b)). Failure of a party to file timely objections to the Report
& Recommendation shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to factual findings and legal conclusions of the
Magistrate Judge that are accepted by the District Court Judge.
In accordance with 28 U.S.C. §636(b)(l)(B), the judge to whom the case is
assigned will make a de novo determination of those portions of the report or specified proposed
findings or recommendations to which objection is made. The judge may accept, reject or
modify, in whole or in part, the findings or recommendations made by the magistrate judge,
receive further evidence or recommit the matter to the magistrate judge with instructions.
Where the magistrate judge has been appointed as special master under F.R.Civ.P
53, the procedure under that rule shall be followed.

KATE BARKMAN
Clerk of Court

By: s/Ashlev Mastrangelo_________
Ashley Mastrangelo, Deputy Clerk
cc:

David Calhoun
Jennifer Andress
Courtroom Deputy to Judge DuBois

civ623.frm
(11/07)

Additional material
from this filing is
available in the
Clerk's Office.

